<html>
<title> - GETTING TO BETTER GOVERNMENT: FOCUSING ON PERFORMANCE</title>
<body><pre>[Senate Hearing 111-633]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-633
 
         GETTING TO BETTER GOVERNMENT: FOCUSING ON PERFORMANCE

=======================================================================


                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                   INFORMATION, FEDERAL SERVICES, AND
                  INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
53-843                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0a7b0af80a3b5b3b4a8a5acb0eea3afadee">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                                 ------                                

 SUBCOMMITTEE ON FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, 
              FEDERAL SERVICES, AND INTERNATIONAL SECURITY

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 JOHN McCAIN, Arizona
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
ROLAND W. BURRIS, Illinois

                    John Kilvington, Staff Director
              Wendy R. Anderson, Professional Staff Member
    Bryan Parker, Staff Director and General Counsel to the Minority
                   Deirdre G. Armstrong, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Carper...............................................     1
Prepared statements:
    Senator Carper...............................................    33
    Senator McCain...............................................    36

                               WITNESSES
                      Thursday, September 24, 2009

Jeffrey D. Zients, Deputy Director for Management and Chief 
  Performance Officer, Office of Management and Budget...........     4
Bernice Steinhardt, Director, Strategic Issues, U.S. Government 
  Accountability Office..........................................     6
W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................    19
Phea S. Suh, Assistant Secretary for Policy, Management, and 
  Budget, U.S. Department of the Interior........................    21
Michelle Snyder, Acting Deputy Administrator and Deputy Chief 
  Operating Officer, Centers for Medicare and Medicaid Services, 
  U.S. Department of Health and Human Services...................    22
Paul L. Posner, Director, Public Administration Program, 
  Department of Public and International Affairs, George Mason 
  University.....................................................    25

                     Alphabetical List of Witnesses

Fugate, W. Craig:
    Testimony....................................................    19
    Prepared statement...........................................    63
Posner, Paul L.:
    Testimony....................................................    25
    Prepared statement...........................................    89
Snyder, Michelle:
    Testimony....................................................    22
    Prepared statement...........................................    74
Steinhardt, Bernice:
    Testimony....................................................     6
    Prepared statement...........................................    40
Suh, Rhea S.:
    Testimony....................................................    21
    Prepared statement...........................................    71
Zients, Jeffrey D.:
    Testimony....................................................     4
    Prepared statement...........................................    37

                                APPENDIX

``Building a Better Government Performance System,'' June 2009, 
  Sponsored by Accenture Institute for Public Service Value, 
  Georgetown Public Policy Institute, OMB Watch, submitted by 
  Senator Carper.................................................   103
Questions and responses for the Record from:
    Mr. Zients...................................................   165
    Ms. Steinhardt...............................................   170
    Mr. Fugate...................................................   177
    Ms. Suh......................................................   179
    Ms. Snyder...................................................   181
    Mr. Posner...................................................   188


         GETTING TO BETTER GOVERNMENT: FOCUSING ON PERFORMANCE

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 2009

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
              Government Information, Federal Services,    
                              and International Security,  
                          of the Committee on Homeland Security    
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:36 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Subcommittee, presiding.
    Present: Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Good morning, everyone. Thank you all for 
joining us today. Our colleagues are going to be drifting in 
and out. We are working on the interior appropriations on the 
Senate floor, so there is a lot going on today. But as you all 
know, 8 months ago, we inaugurated a new President, and since 
coming into office, President Obama has faced--I think it is an 
understatement--a complicated set of challenges, both domestic 
and international.
    For example, our new President has faced soaring Federal 
deficits projected to reach some $9 trillion over the next 
decade. He has inherited an economic crisis that has required 
unprecedented international cooperation to jump-start the 
world's economies. He has inherited dangerous security threats 
in Afghanistan and Pakistan, where I visited recently, and 
Iraq, Iran, and North Korea, among others.
    Those are just a few of the exceptional challenges that our 
country, including our government, needs to be prepared to 
address. As the Government Accountability Office (GAO) has 
pointed out, the Federal Government's performance and the 
results that it achieves have a profound effect on the most 
important issues to the American people, for example, issues 
like creating jobs, providing better health care for less 
money, overseeing financial markets, reducing pollution, 
reducing the threat of climate change and global warming, and 
the challenge of sending additional troops to war to fight 
against terrorism.
    While the strength of our democracy rests on the ability of 
our government to deliver its promises to our people, we in 
Congress have a responsibility to be judicious stewards of the 
resources that taxpayers invest in America. We have a 
responsibility to ensure those resources are managed honestly, 
transparently, and effectively.
    It has been more than 16 years since Congress passed the 
Government Performance and Results Act to help us better manage 
our finite resources and improve the effectiveness and delivery 
of Federal programs. Since that time, agencies across the 
Federal Government have developed and implemented strategic 
plans and routinely generated a tremendous amount of 
performance data. Are Federal agencies using their performance 
data to get better results?
    Producing information does not by itself improve 
performance. The GAO has shown time and again that Federal 
managers have much more performance information available today 
than they did a decade ago. However, the GAO findings also 
reveal that Federal managers have shown little or no progress 
in increasing their use of performance information to manage 
results.
    Several years ago, Senator Tom Coburn and I asked the GAO 
to examine how performance information was being used to better 
manage Federal agencies and how managers could employ it more 
frequently for better results.
    We also asked the GAO to consider the Clinton 
Administration's implementation of the Government Performance 
and Results Act (GPRA) and the Bush Administration's 
implementation of the Performance Assessment Rating Tool 
(PART).
    Today we look forward to GAO's discussion of its final 
report, particularly key management practices that can promote 
the use of performance information in decisionmaking to improve 
results.
    We have a new Administration, with fresh ideas and a 
renewed commitment to getting results. To demonstrate that 
commitment, President Obama announced earlier this year the 
creation of a position for a chief performance officer, a post 
designed to improve government efficiency and reform budget 
practices. I am delighted that the Chief Performance Officer, 
Jeff Zients, is here today to discuss how his team will assist 
and motivate Federal agencies to improve the effectiveness, 
efficiency, and transparency of our government by using 
performance information well.
    I would like for us to focus our discussion today on 
several crucial questions.
    One, how will the Obama Administration design and structure 
its new performance improvement and analysis framework?
    Two, what strategies are necessary to support a government-
wide transformation to a more results-oriented and 
collaborative culture?
    Three, for agencies that appear to be using performance 
information the least, to what extent do they employ practices 
GAO has identified that could facilitate or encourage the use 
of performance information?
    Four, how can Federal agencies make better use of 
performance information to improve results?
    And, five, what are some specific things that we in 
Congress can do to bring about a greater focus on performance 
in the Federal Government?
    And, finally, how can we use performance information to 
identify where the Federal Government is not performing well so 
that we can make better decisions about where we should be 
putting our resources?
    Today we face unparalleled challenges both here and abroad, 
and these require a knowledgeable and nimble Federal Government 
that can respond effectively. With concerns growing over the 
mounting Federal deficit and national debt, the American people 
deserve to know that every dollar that they send to Washington 
is being used to its utmost potential. Performance information 
is an invaluable tool that can ensure just that. If used 
effectively, it can help us to identify problems, find 
solutions, and develop approaches that improve outcomes and 
produce results.
    Before I introduce our witnesses, I just want to take a 
moment and say that in yesterday's markup in the Finance 
Committee on health care reform, I shared with my colleague the 
work that this Subcommittee has done, Senator Coburn and myself 
and others have done, on improper payments. I shared with them 
that earlier in this decade the Congress passed, and President 
Bush signed, legislation calling on agencies, requiring 
agencies to report improper payments.
    Some agencies did and some did not. As time has gone by, 
more agencies have subscribed and complied with the reporting 
requirement of reporting improper payments. Not all have but 
now most have. And we have identified, as of last year, some 
$72 billion in improper payments were reported by the agencies 
that are complying with the reporting requirements.
    I think the record would show that several agencies are not 
complying fully. They include, I think, the Department of 
Defense, the Department of Homeland Security, and a couple of 
others--I think Medicaid and Medicare, at least parts of 
Medicare.
    I shared with my colleagues, as I offered an amendment 
yesterday, that it is not enough for us just to identify 
improper payments. That is certainly important. It is a start. 
We have to report them. We have to reduce them. And we need to 
go out and recover monies that have been improperly paid, 
especially in overpayments. It is pretty logical.
    And we started down that road in one part of Medicare. 
About 3 years ago, through private contractors, we basically 
said we want you to go out and work in California, Texas, and 
Florida to begin to recover overpayments. In some cases, 
fraudulent payments were made because of fraud. And the first 
year or two, they did not recover much. Last year, they 
recovered $700 million.
    When the Finance Committee reports out its legislation, 
hopefully by the end of this week, that experiment, which was 
started in three States, very successfully now, will be 
extended to all 50 States to recover, not just Medicare maybe 
Part A and B, but also Part C and D. Part D is the prescription 
drug program. And we will take the lessons learned there to 
also begin going after monies that were overpaid, improperly 
paid, fraudulently paid with respect to the Medicaid program.
    So some work that actually started in Office of Management 
and Budget (OMB) in the previous Administration with input from 
this Committee, this Subcommittee, is now about to bear great 
fruit, enormous fruit, to not only reduce improper payments but 
to begin to recover monies that have been fraudulently or 
improperly paid.
    So we are starting to realize some success there. We need 
to realize a lot of success, and we need to identify success 
with all this performance information that we are collecting to 
actually use it to get us to where we need to be, and that is 
better results in a very challenge environment at home and 
abroad.
    So we welcome this opportunity today, and in introducing 
our witnesses, I mentioned that Jeff Zients, I think his 
official title might actually be Deputy Director for Management 
at OMB, but he is also the government's first ever performance 
officer. And when we are talking about this particular subject, 
he is the right person to have here, and we are delighted that 
you have made time to join us.
    Mr. Zients comes to government with an impressive resume, 
having worked for 20 years as a management consultant and 
entrepreneur. Mr. Zients also co-founded the Urban Alliance 
Foundation, a nonprofit that helps economically disadvantaged 
young people obtain year-round internships and job training.
    Sitting beside him is Bernice Steinhardt, the Director for 
Strategic Issues at the Government Accountability Office where 
she is responsible for examining governmentwide management 
issues. For over 9 years, she has led GAO's efforts in 
strategic planning and helped to develop the organization's 
first strategic plan. She has also held a number of positions 
at GAO, including Director of the Public Health Issues Group. 
And she has served as Associate Director for Energy, Natural 
Resources, and Science Issues as well as Environmental 
Protection Issues.
    We thank you both very much for joining us today and for 
testifying. I have just been handed a notice that says to 
remind the witnesses that they have roughly 5 minutes to speak.
    Mr. Zients, why don't you lead us off? And, again, my 
thanks to both of you for coming.

    TESTIMONY OF JEFFREY D. ZIENTS,\1\ DEPUTY DIRECTOR FOR 
MANAGEMENT AND CHIEF PERFORMANCE OFFICER, OFFICE OF MANAGEMENT 
                           AND BUDGET

    Mr. Zients. Thank you, Senator Carper. I really want to 
first thank you in that all of us are spending most of our days 
in that intersection of what is urgent and important, and you 
have a lot going on. The challenge with this terrain is that it 
sometimes does not feel urgent in the moment. But I think it is 
extremely important for this government at this point in time, 
so your example of improper payments would be a great story on 
that front. When you tackled it initially, it probably did not 
feel like it was the stuff of instant return or instant 
gratification, and now look at the payback. So I am very 
appreciative of you carving out this time from a very hectic 
schedule to do this.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Zients appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    Senator Carper. I am delighted and excited to be here. 
Thank you.
    Mr. Zients. I appreciate the opportunity to be here and 
discuss our shared objective, which is increasing the 
effectiveness, efficiency, and transparency of government. 
Today I want to address my remarks to your questions about 
Federal agency use of performance information for 
decisionmaking and resource allocation.
    As you said, the current fiscal challenge makes it even 
more important to maximize the effectiveness of every tax 
dollar we spend. We need to search continually for increasingly 
effective and efficient ways to get the job done.
    To accomplish this, it is not enough for Federal agencies 
to produce performance information. The ultimate test of our 
performance management efforts is whether or not the 
information is actually used, not just by government agencies 
but also by Congress, the public, and our service delivery 
partners.
    Across those 20 years, in the private sector as a CEO and 
an adviser to a CEO, I found that leadership measurement and a 
motivated workforce together create the foundation for good 
performance. I am confident after 3 months the same is true 
here in government.
    It is my initial sense after the short period of time on 
the job that important ground work for governmentwide 
performance management has been laid by Congress and previous 
Administrations, including, as you said, the Clinton 
Administration's implementation of the Government Performance 
Results Act, and certain elements of the Bush Administration's 
implementation of the PART system.
    But too much emphasis was placed historically on producing 
performance information for the purpose of complying with 
reporting requirements and too little attention paid to 
analyzing and acting on this information. It is time to pay far 
more attention to the use of Federal performance information as 
a powerful performance improvement tool for communicating 
priorities, progress, and raising issues, for illuminating what 
works and should be continued and what does not work that needs 
attention, for motivating the best from our workforce and our 
service delivery partners, and for allocating our scarce 
resources wisely.
    The good news here is that many public and private 
organizations have developed successful models for increasing 
the use of performance information, and my intention here is to 
look for best practices or best examples of what is working in 
other governments, the private sector, and in our own Federal 
efforts, and apply these practices across the Federal 
Government.
    The first step in taking on a challenge like this is 
putting the right leadership team in place, and I am pleased to 
announce a new member of my team, Shelley Metzenbaum, who is 
actually in Washington for her first day of work today. She is 
a leading expert in performance management with both a 
distinguished academic career and a wealth of government 
experience. She has authored numerous articles on practical, 
effective ways to use performance goals and measurement in 
government, and she has served in key leadership positions in 
past Administrations in the U.S. Environmental Protection 
Agency and in the State of Massachusetts.
    Our performance management agenda is already moving 
forward. In this year's spring budget guidance, OMB Director 
Orszag asked all Federal agencies to identify a limited number 
of high-priority performance goals reflecting the near-term 
implementation priorities of each agency's senior managers. 
These goals communicate the priority targets that each agency's 
leadership hopes to achieve across the next 12 to 24 months. 
And once this list is final--we will regularly review with 
agencies the progress they are making and the problems they are 
encountering and make any mid-course corrections.
    We will expect each agency to reach beyond their own 
organizational boundaries to get feedback about priorities and 
strategies and to enlist expertise and assistance to reach 
their targets. Improving the performance of our Federal 
programs will require cooperation and contribution from many 
places. Ms. Metzenbaum and I will be leading an effort to 
develop an improved Federal performance management framework 
that aligns these high-priority performance goals with GPRA 
performance reporting in many of the program-level performance 
metrics that were developed as part of PART.
    Our governmentwide performance measurement framework will 
be focused on outcomes, and it will allow comparisons across 
programs and agencies. It will also show trends across time. We 
will use new information technology to make this more feasible, 
less cumbersome to access, and, most importantly, to meet our 
ultimate goal of more use across the government.
    In addition, the Administration is proposing significant 
investments in rigorous and independent program evaluations. We 
will integrate these efforts into this larger performance 
framework. I am confident we will develop a performance 
management framework that better serves the needs of agency 
managers as well as the public, and Congress' need for Federal 
performance transparency.
    These steps will go a long way to helping us improve the 
effectiveness, efficiency, and transparency of government. This 
is a cornerstone of my agenda and one of my highest-priority 
performance goals.
    I thank the Subcommittee, and you, Senator Carper, for your 
belief in improving Federal performance, and I look forward to 
working with you, with the other members of today's panels, 
with Federal employees across the Nation, and with our service 
delivery partners to accomplish this objective.
    Mr. Chairman, I would be pleased to answer any questions 
you have.
    Senator Carper. Thanks very much, and I have several 
questions, once Ms. Steinhardt has completed her testimony.
    Mr. Zients. Thank you.
    Senator Carper. Thanks so much for your testimony and for 
being here today.
    Ms. Steinhardt, you are recognized. Please proceed. Your 
entire statement will be made part of the record for both of 
you.

TESTIMONY OF BERNICE STEINHARDT,\1\ DIRECTOR, STRATEGIC ISSUES, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Steinhardt. Thanks very much, Senator Carper, and I, 
too, appreciate the opportunity to be here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Steinhardt appears in the 
Appendix on page 40.
---------------------------------------------------------------------------
    Let me just say first that I was delighted to hear about 
Shelley Metzenbaum's joining your team. I think she will be a 
great addition, and we look forward to working with both of 
you.
    Senator Carper. How do you know her or how do you know of 
her?
    Ms. Steinhardt. She has been very involved in this area of 
performance information and management with information for a 
long time. She has written a lot about it. We have worked 
together in the past. We have relied on her expertise in doing 
our own work. So I think she will be enormously valuable here.
    Senator Carper. So a pretty good hire?
    Ms. Steinhardt. A very good hire. [Laughter.]
    Senator Carper. That is good to hear. Thank you.
    Ms. Steinhardt. Well done.
    Last year, I was here to talk about the first part of the 
work that we undertook at your request, which, as you mentioned 
before, was based on a governmentwide survey of Federal 
managers. And as you said, Senator Carper, we found that while 
managers have a lot more information today than they did 10 
years ago when we first started doing our surveys, there really 
has not been much progress over that period in the extent to 
which they use information to make decisions that could lead to 
better results.
    So to try to figure out what is behind this, we focused the 
second part of our efforts on a review of management practices 
at the Department of the Interior and at FEMA, whose managers 
were relatively low users of performance information compared 
to other agencies. And at the same time, we also looked at the 
Centers for Medicare and Medicaid Services (CMS), because they 
seemed to have made a good bit of progress in using performance 
information over that period, and we wanted to understand what 
contributed to that improvement.
    What we found was that a number of practices seemed to 
account for the difference between those places where 
performance information is widely used and those where it is 
not. These practices actually may seem obvious. They may seem 
like common sense. But, in fact, they are not always present, 
and when that is the case, it makes a big difference.
    From our past work, we know that several practices are key, 
and I will mention just a couple here, and I think Mr. Zients 
has alluded to a couple of them as well.
    First and foremost is the visible commitment of leadership 
to using and communicating that performance information and 
performance itself matters; and, second, having performance 
information that managers themselves find useful in doing their 
work.
    CMS actually turned out to be a good example of how these 
practices have made a difference. Between 2000 and 2007, the 
percentage of CMS managers who said that their top leadership 
demonstrated a strong commitment to achieving results went from 
46 to 69 percent--quite a big leap.
    Senator Carper. Say that one more time.
    Ms. Steinhardt. The percentage of managers who said that 
their top leadership demonstrated a strong commitment to using 
performance information was 49 percent in the year 2000, and it 
went up to 69 percent, so more than two-thirds of managers in 
2007 viewed their top leadership as being committed to using 
performance information.
    Nearly all of the CMS officials that we met with credited 
this commitment, as well as other key practices, with helping 
to achieve better outcomes in the quality of care for nursing 
home patients, for one example, as well as in other critical 
areas.
    By the same token, the absence of these practices had a lot 
to do with the situations we encountered at the Interior and at 
FEMA. At both agencies, only about a third of the managers 
surveyed felt that the agencies' top leadership demonstrated a 
strong commitment to achieving results.
    In delving further, it was clear that managers in both 
agencies had a very strong commitment to their agencies' 
missions, but the level of commitment to using performance 
information varied greatly. One official in FEMA, for example, 
told us that he did not need performance information; he just 
relied on conversations with people to know whether or not 
things were running well.
    At Interior, we found that while the agency was collecting 
a lot of performance information, leadership was not 
effectively communicating to its managers how, if at all, they 
were using that information to achieve better results. Several 
Park Service managers that we talked to referred to the 
reporting process as ``feeding the beast'' because they got 
little or no feedback in response to the information that they 
fed upward. And so they assumed that no one in authority 
reacted to or acted on the information, and it was not always 
useful to the managers themselves either.
    At the same time, though, we found that both Interior and 
FEMA had pockets of good practices, places in the agencies, 
whether in different directorates or locations, where things 
were going well. And so our report to you includes several 
recommendations to the agencies that are intended to build upon 
these good practices.
    More widespread adoption of these key management practices 
is, of course, an important step to building a more results-
oriented and collaborative culture in the Federal Government. 
But beyond this, both the President and the Congress can play 
vital roles in setting the tone at the top and communicating to 
agency leaders that performance matters.
    Given its vantage point, OMB can play a role in sharing 
leading practices among agencies and helping those that may 
need support to adopt them. But, importantly, OMB can also help 
support collaboration among agencies to achieve results in a 
number of areas like ensuring the safety of the food supply or 
combating terrorism, any number of the challenges that you 
mentioned at the outset, Senator Carper, where actions are 
required that go beyond the mission of any single agency. So, 
in this respect, we have long supported the idea of a 
governmentwide strategic plan and an annual performance plan 
that is supported by a system of key national indicators, which 
together could provide important tools for integrating efforts 
across agencies to address the challenging issues that continue 
to face our Nation in the 21st Century.
    So, with that, I will wrap up my statement and offer my 
thanks for your time and concern about these issues. And, of 
course, I would be happy to answer any questions.
    Senator Carper. Good. Thanks so much. Thank you so much for 
being here and for your testimony. A special thanks to GAO for 
your responsiveness to the request that Senator Coburn and I 
asked a couple of years ago for your help on this, so thank 
you.
    I am told by Wendy Anderson, who is sitting here behind me, 
my senior staff person on the Subcommittee, that you have 
mentioned a nursing home example of how managers in performance 
information were well utilized. I am going to ask you to take a 
minute and tell us that story.
    Before I do, I just want to mention, when I think of using 
performance information, I go back in time a little bit. As 
Governor of Delaware, we decided, along with most other 
governors in most other States, to establish vigorous academic 
standards about 15 years ago in math, science, English, and 
social studies. We began trying to measure objectively student 
progress toward those standards to show what they knew and 
understood in math, science, English, social studies, and other 
subjects.
    Then we decided how to use that information to improve 
performance, to incentivize students and faculties, teachers, 
principals, and superintendents, how to hold folks accountable, 
including students, schools, school districts, and teachers.
    I probably have been to just about every public school in 
Delaware--there are several hundred--and I still go into them 
as often as I can, every week or two. I try to go into the 
schools where they have done a good job of being a so-so school 
in terms of scoring well and showing progress with respect to 
academic standards. And I find that the schools that usually 
make the most progress are schools that focus on the objective 
performance of students on our annual tests, and soon they will 
be more frequent. But it is the schools where the leadership of 
the school--the principal, the assistant principal--are able to 
convince their faculties to drill down on the information, the 
performance information, and to act on that performance 
information.
    It comes from the top. You are right about that. It comes 
from the top. And when you get the faculty members, the 
teachers, to sort of take ownership of that and believe in 
that, just amazing things happen in terms of student 
performance.
    Believe it or not--here in Congress--one of the things I 
love to do is every 2 years, right after the election, we have 
orientation for new Senators. It was an idea that Senators 
Voinovich, Alexander, and Mark Pryor of Arkansas came up with 
about 4 or 5 years ago. And we always had for years orientation 
for new Senators and spouses. We call it orientation for new 
governors and spouses that the National Governors Association 
holds. We never had that kind of thing for Senators, at least 
not that I knew of. So we took the National Governors 
Association idea, brought it to the U.S. Senate, starting in 
2004. One of our first students was Barack Obama. He has done 
quite well. [Laughter.]
    But one of the things at the orientation for new Senators, 
we started to teach the new Senators all the things we had done 
wrong so they will not make the same mistakes that we made as 
new people or as older people in our jobs.
    One of the things I shared with them is how we measure 
performance in my office--not in every way, but in a couple of 
ways. A lot of people focus on a Senator's job and they think 
it is what they do in Washington. It is the amendments that we 
introduce, the bills we vote on and so forth, the legislation 
we write. That is all important. But a big part of what we do 
at home is help people. We literally help people. I hosted a 
family for lunch yesterday. They had won an auction to have 
lunch with their Senator and help the YMCA back home for a 
donation. And the kid said--these are kids like 6, 8, and 10. 
He said, ``What do you do, anyway?'' And I told him my job is 
to help make the rules for our country, and we call them laws, 
and like they have rules at school, rules at home. I said, ``We 
have rules for our country, call them laws, I get to help make 
those with Barack Obama and Joe Biden and other people.'' They 
were pretty impressed. They wanted my autograph. And they said, 
``Barack Obama, do you know him?'' I said, ``I have met him.''
    But a big part of what we do at home is we literally help--
dozens of people call us every day with all kinds of problems--
relatives in Iraq, relatives in Afghanistan, folks who are 
being pinged by the IRS for no good reason, Social Security 
problems, Medicare problems, veterans issues, all kinds of 
stuff. And we actually have helped thousands, probably 16,000 
people in the last 8 years.
    Anyway, at the beginning of every month, we send out a 
customer satisfaction survey to the people, a representative 
sample of folks we served the previous month. And we asked them 
to evaluate our service--excellent, good, fair, or poor. And if 
they come back anything less than excellent or good, we call 
them on the phone and say, ``Why were we fair?'' Or ``Why were 
we poor? What could we have done differently?'' I think over 
the last several years we were, I think, about 98 percent 
excellent or good, so we are very proud of that. And it is 
great feedback for the folks who work on my staff in--we call 
it ``constituent service.''
    The other thing we do is we measure mail. We used to get a 
lot of mail here. Now we get a lot of e-mails. We get faxes, we 
get phone calls. But with health care and some other issues, 
climate change legislation, we get thousands of e-mails, 
letters, and calls a week. And for a little State like 
Delaware, that is a lot.
    But we track the mail, who is writing what issues, and we 
track timeliness of responses, turn-around times and how long 
it has been for a response. We are not perfect, but we are very 
proud of the way we do that. But we actually measure that 
performance. I get a report every other week, and I review that 
with my staff and meet every week with my legislative 
correspondents by phone so they know this is important stuff.
    The idea is it starts from the top, and we emphasize how 
important it is, and it seems to work.
    Let me ask you to share with us that nursing home example 
of how managers used performance information well, if you just 
could start off with that.
    Ms. Steinhardt. Well, first, I would really like to comment 
on your stories because I think they are outstanding examples 
of how that visible concern, that visible commitment to 
performance, really makes a huge difference. And I think the 
fact that you made appearances at the schools--it was not only 
what the principals did, but that you showed up, and as 
governor you showed that you cared, I am sure that made a 
difference in how everyone at the schools felt about it. So, 
yes, leadership really does matter.
    In the case of CMS, I think the example that you referred 
to is one that we talk about in our report, and it is one that 
we found very compelling. CMS is an agency that is responsible 
for overseeing the quality of nursing home care, but it does it 
indirectly. It is obviously at the nursing home level where 
patient care is really affected.
    CMS, in one particular region, started collecting 
information about dimensions of quality of care, including the 
incidence of pressure ulcers or bedsores. And they started 
sharing that information with nursing home operators, with the 
State survey teams, and others who did have the ability to 
affect the outcomes. And just the availability of the 
performance information, the regular attention and monitoring 
of that information eventually led to a decline in the 
incidence of bedsores within the region by a considerable 
amount. Over 2,000 to about 2,400 fewer patients experienced 
pressure ulcers as a result of the attention that they were 
paying.
    Senator Carper. That is a good story. Thank you.
    Ms. Steinhardt. Yes, and it is real. It is personal.
    Senator Carper. Mr. Zients, given your background in this 
issue, could you just share with us some insights as to why the 
overall use of performance information among Federal managers 
has not significantly increased, I think, over the last 15 or 
so years? And what strategies do you think are necessary to 
support our governmentwide transformation to a more results-
oriented and collaborative culture?
    Mr. Zients. Well, first of all, I think that, like you, it 
is in my DNA. So as I come in from the private sector, I come 
with that same mind-set that you have, that you are operating 
with each day. I have been surprised by the lack of attention 
to performance, prioritization, and focus starting at the top 
historically. And I do think it starts at the top. It has to 
cascade through the organization, but if the senior-most folks 
are focused on the right performance goals and metrics and are 
relentlessly tracking them the way you do weekly, then that 
cascades through the organization. And, unfortunately, if they 
are not, then it does not happen.
    I think we are off to a good start on this front. I chair a 
group called the President's Management Council, which is 
comprised of deputy secretaries across all major agencies. And 
when you think about how busy secretaries are with their 
external-facing responsibilities, the deputies tend to be the 
point people for performance. And I am very impressed by the 
talent around the table and the commitment at that table to 
focus on a handful of performance goals.
    We asked, as in our spring guidance as part of the fiscal 
year 2011 budget, for each agency to identify a handful of 
high-priority goals, and I think overall with some variability, 
the agencies, deputy secretaries, and secretaries did a very 
good job.
    Now, as those goals get finalized and incorporated 
appropriately into the budget process, we need to make sure 
that we set up the systems to review progress against those 
goals, spot problems early, and also reward successes, like 
your nursing home story, and your improper payment work, as 
they emerge.
    I think we are off to a good start. It has to be done at a 
senior level. It has to be focused. There cannot be too many 
goals. As we move from goals to tracking and metrics, we need 
to make sure that those metrics are outcomes based. As stated 
earlier, we need to make sure we have the capabilities to go 
across program and even across agency in that a lot of our 
issues or problems or opportunities are not siloed or they do 
not reside just within a silo or an agency, or a program for 
that matter.
    As we begin to look at what has happened historically, we 
need to be careful not to throw it all out the window, because 
there is a lot of good stuff. And we need to at the same time 
make it more usable, and I think the way we do that is to 
leverage information technology and bring together the GPRA 
reporting with the pieces of PART that we want to keep and 
integrate that with the high-priority performance goal, and as 
we cascade down the organization, make sure that we have 
information that is outcomes based, that is usable, and that we 
track.
    I am optimistic. There is a lot of good stuff in place. The 
foundation has been laid. Now we have the challenge of raising 
the importance of it, which I think the President has done by 
making it a high priority. As the first Chief Performance 
Officer, it is a high priority for me. And as I see the 
deputies dig into their new jobs, it is clearly front and 
center for them. So I am optimistic that those statistics will 
continue to improve across time and, most importantly, we will 
have better outcomes for the American people.
    Senator Carper. You mentioned the President. In a State, 
the chief executive, of course, is the governor, and in our 
State housing had not gotten a lot of attention. And we decided 
that we were going to provide more attention, not just talk 
about it but to make the director of the State Housing 
Authority a member of my Cabinet and to provide Cabinet status 
to say this is important. And it is amazing what we did in 
terms of improving quality of homes, homeownership, and just 
ensuring that people had a decent place to live, and also 
helped move people from dependency, living in subsidized 
housing, to becoming homeowners and moving out on their own. 
But it starts with a lot of things. It starts at the top. The 
designation in a senior position in this Administration for a 
Chief Performance Officer is, I think, a very good signal.
    Ms. Steinhardt, if I could go back to you, GAO has been 
monitoring agencies' use of performance information, I think, 
for maybe more than a decade. Let me just ask, should OMB be 
doing this type of monitoring? And if so, how do you think they 
might go about it?
    Ms. Steinhardt. I think OMB should be doing this kind of 
monitoring as a matter of fact. I think it is appropriate to 
the extent that they want to keep track of how agency managers 
are using information, it would be worthwhile for them to have 
the information.
    We now share it. We have been doing this survey every 4 
years for the last decade or so, but I think as a regular part 
of OMB's responsibilities, it would make sense for them to 
assume that kind of oversight function.
    Senator Carper. From the work that you have done at GAO, 
could you provide us maybe with an example or two of how an 
agency was able to bring about better outcomes through the use 
of performance information? You gave us one great example, the 
nursing home. Anything else that comes to mind?
    Ms. Steinhardt. I wish that there were a huge long list of 
these examples, but I will just mention another one that we 
have observed in our experience. The National Highway Traffic 
Safety Administration, a very interesting agency, collects 
information on trends in safety across the country, and they 
have been looking at data, monitoring data on highway 
fatalities. And through this regular monitoring and through 
evaluations, they realized that seat belt usage was a major 
factor in reducing the incidence of highway fatalities.
    Now, the National Highway Traffic Safety Administration 
(NHTSA), does not run anything. They provide grants to States. 
It obviously states that control--that set traffic laws and 
regulations. But in their grants to States, they share this 
information with States. They initiated this click-it or ticket 
program to encourage States to enforce seat belt usage. And 
with that, the incidence of fatalities, highway traffic 
fatalities and injuries fell quite a lot.
    So I think just having information, sharing the 
information, staying on top of it, we have seen some really 
clear and very credible kinds of results.
    Senator Carper. I will not get into it, but that is an 
example that for me comes very close to home. Thank you.
    Mr. Zients, if I could, another question for you. OMB has 
signaled that it intends to replace PART with a new performance 
information and analysis framework. What do you think that new 
framework will look like? How might it promote the use of 
performance information by managers? And, third, how will the 
new framework incorporate the perspectives of the Congress and 
other stakeholders on what areas of performance need to be 
reviewed?
    Just take those one at a time, if you want. What will the 
new framework look like?
    Mr. Zients. Let me start with the role of OMB and, I think, 
agreeing with what you said. At the same time, I think that 
historically--certainly the last 8 years or so--OMB has played 
the role of a compliance officer rather than a teacher or a 
facilitator or a hub of best practice sharing. And I think 
given how big this government is and how talented our Federal 
workforce is and our manager ranks are, I think we need to move 
from compliance to teaching and sharing to really achieve what 
I think all of us agree.
    So I think there is a transition for OMB. Not to say that 
there is not some role for reviewing and prodding, if you will, 
but I think that in order to create usefulness, we need to make 
that transition.
    Part of that is the Performance Improvement Council (PIC), 
and it is a group that is made up of senior folks from agencies 
who are the accountable executives, on performance. That body 
came together, I believe, a couple of years ago and is getting 
real traction, and we have asked that group to work on exactly 
the question that you ask, which is: What do we do with PART? 
What do we do with GPRA? How do we integrate? How do we make 
this more usable? And I think that means we need to be more 
focused than we have been. There are too many metrics out 
there. So we have to figure out which metrics matter.
    We need to make sure that those metrics are actually 
outcomes-based metrics and not just process or input metrics. 
We need to make sure that there are good tracking systems for 
those and review systems for those and good education systems 
because this is new. And we need to make sure that we are 
training and educating through the PIC and other bodies.
    So I think it needs to be a collaborative effort, and 
certainly we want to involve you and your staff in helping us 
think through how is it most useful to you, and ultimately this 
needs to come together and matter to Congress and to the 
American people and be transparent and available for all, and I 
think also be tied to the budget process to show that 
performance matters and that we are going to fund programs that 
work and we are either going to fix or not fund programs that 
do not.
    Senator Carper. Thank you. A couple more questions for Ms. 
Steinhardt, if I could.
    We were just talking about how the Obama Administration has 
indicated that it intends to replace PART with a new 
performance improvement and analysis framework. What do you 
think OMB can do to make the successor to PART more relevant 
and useful to Congress and to agency managers? We have heard 
from Mr. Zients on what the plans are, but if you could just 
let us know, what do you think OMB can do to make the successor 
to PART more relevant, maybe more useful, and not just to 
Congress but also to agency managers?
    Ms. Steinhardt. Well, first, I think one of the lessons we 
learned from our assessments at GAO of the PART process was 
that it was too broad, and it really would have benefited from 
a greater focus on priority areas. And I think that is what Mr. 
Zients has outlined here as the direction that OMB is taking. I 
think that is a constructive and hopefully effective approach. 
Rather than trying to look at everything, I think PART assessed 
a thousand programs. Focusing on priority areas should be very 
helpful.
    I think certainly consulting with Congress in that process 
would be very important and valuable. It was something that did 
not work very well during the PART process, and we have an 
opportunity now to do better.
    I think in terms of making information more useful or 
helping to support agency managers, I think what Mr. Zients has 
outlined as a kind of coaching, supportive approach to sharing 
information and good practices is also very important. We found 
in our past work that training in using performance information 
has actually been the factor that is singly most important in 
effecting use of performance information. So whatever OMB can 
do there to help promote good practices, to help support those 
agencies where it seems to be missing, and also to share what 
they learn from agencies where it is working well, those could 
be very valuable, I think, for going forward.
    Senator Carper. Before I ask one more question of you, Mr. 
Zients, do you want to respond at all to anything that Ms. 
Steinhardt has said?
    Mr. Zients. No. I read the report, there was not a single 
place where I paused and said, ``Hmm.'' It all felt exactly on 
point, and I do not think there is any disagreement around what 
needs to be done here. It is about us putting our heads down 
and getting it done.
    I do think the training component is important. I was 
reminded of it last night. My oldest of four is 14, and to 
date, I have been OK at helping her with her math homework. She 
needs to go to her Mom for other stuff. But now she is into 
geometry, and I think she was not only disappointed but did not 
quite believe me that I could not do it. And then, if you go 
back and actually read it, geometry comes back to you, but, 
other math sort of sticks with you because you use it every 
day.
    There is a component here in that all of this stuff, when 
you see the right metrics, you say, yes, that is pretty 
obvious. But it is not a natural exercise, and we do need to 
sort of remind people of their geometry or teach their 
geometry. And once we do that and we have lots of folks who are 
capable of teasing out these right metrics and coming up with 
the right systems to do that relentless pursuit and review that 
you described, I think it will catch. We will hit a tipping 
point. But we need to do some training and education to ensure 
that happens.
    Senator Carper. I was watching, and when you talked about 
your 14-year-old and hitting the point where homework, the math 
homework and geometry or advanced algebra or whatever, I saw 
some nodding heads. [Laughter.]
    Mr. Zients. It is the least of my issues with my 14-year-
old, but a lot of this I will not be able to relearn.
    Senator Carper. Thanks for sharing that one with us.
    GAO has previously recommended that OMB should work with 
agencies to ensure they are making adequate investments in 
training on performance planning and measurements, with a 
particular emphasis on how to use performance information to 
improve program performance.
    But, again, you have covered this a little bit already, at 
least indirectly, but just talk with us again about what steps 
OMB has taken or what steps will you take to address this 
recommendation from GAO.
    GAO has previously recommended that OMB should work with 
agencies to ensure they are making adequate investments in 
training on performance planning and measurement, with a 
particular emphasis on how to use performance information to 
improve program performance. Would you respond to that in part?
    Mr. Zients. I will cover some ground that we have already 
talked about. One is making sure that the deputies understand 
the importance of this, and so that when they are going through 
their budget allocation exercise, they are doing that 
consistent with their high-priority performance goals, but also 
preserving money for training and education across the board 
and on this specific topic.
    I think the Performance Improvement Council is a great 
vehicle here. It is meeting monthly. I am the chair of that 
council, and Ms. Metzenbaum will be dedicating a lot of time 
and energy to the meetings and to working sessions in between. 
So I think that it is the focus at the senior levels. It is the 
commitment to training. I think OMB can play a part here by 
putting our energy toward training and education and sharing 
best practices, and I think recognition here is very important, 
too, in that we need to make sure that we are celebrating the 
successes. There are a lot of successes, and we need to make 
sure that we spend appropriate time celebrating those.
    Senator Carper. Good. And one last question, if I could, 
Ms. Steinhardt, for you. You were good enough to give us an 
example or two from agencies in terms of performance. Do you 
have any examples in which Congress has articulated performance 
expectations in its oversight capacity and followed up with 
agencies to assess their progress toward meeting those 
expectations?
    Ms. Steinhardt. Actually, there are probably many more 
examples than come to mind. But Congress has been very 
influential in affecting performance. Improper payments, the 
example you gave earlier, I think is one very vivid example of 
where setting a target or directing agencies to first 
understand where they are and then set targets for reducing it 
has made a very important difference.
    Another example that comes to mind has to do with the IRS. 
In the IRS Restructuring Act in 1998, among other things, 
Congress directed that IRS increase electronic filing. And it 
set a target in the legislation that by the year 2007 some 80 
percent of tax returns would be filed electronically. And that 
has enormous implications for service to the taxpayer. For one 
thing, electronic filing could get taxpayers their refunds much 
more quickly. And it would reduce costs of processing 
enormously.
    And through setting the target and then overseeing IRS' 
efforts along the way, that target has not been completely met, 
but I think now it is around 72 percent of tax returns are 
filed electronically. So we have made enormous progress through 
that direction that Congress set in statute.
    Senator Carper. Mr. Zients.
    Mr. Zients. I just thought I would add one, because I think 
there are many, and that is security clearance reform. Senator 
Akaka and Senator Voinovich held a hearing a couple weeks ago, 
and I am chair of the task force, and it is an honor to be part 
of such an important problem, but it is also nice to enter at a 
point where so much progress has been made. A stake was put in 
the ground as to progress across a period of time, and that 
group is on track. So, again, I think it is the power of 
setting a goal and the relentless pursuit of that goal.
    Senator Carper. Well, good. With that, let me just close by 
saying I know you all have a lot on your plates. We very much 
appreciate the preparation that you put into coming here today 
and your commitment to making sure that at a time when we are 
facing enormous challenges, and a lot of them budgetary and 
fiscal in nature, that there is a real focus that comes in from 
the top, and we have GAO to make sure that we get some help and 
good advice and counsel in addressing these matters.
    I am told by my staff that we have some legislative ideas 
on a lot of what we have discussed here today, and let me just 
say we look forward to working both with GAO and with OMB on 
those in the weeks to come.
    Thank you very much. Keep up the good work. Everything I do 
I know I can do better. And, frankly, the same is true with 
almost everything we do in government and outside of 
government. And our job and our challenge is to make sure we do 
it better.
    Thank you.
    Ms. Steinhardt. Thank you.
    Mr. Zients. Thank you.
    Senator Carper. And with that I am going to ask our second 
panel to come forward and join us at the witness table, please.
    Good morning, everyone. It is great to see you. Thanks so 
much for joining us. I see Mr. Fugate, our FEMA Administrator, 
often. He has only been in the job a short while, but I see him 
a lot. But I do not get to see the rest of you quite that 
often, so we are delighted that you are here.
    I am going to provide a short introduction on each of you, 
but before I introduce our witnesses, I want to take a moment 
to thank you for appearing, but I think it is also impressive 
that you have not only been invited but you have shown up, and 
that the commitment of agency heads and senior leaders to 
results-oriented management is critical, which we heard from 
our first panel, critical to increased use of performance 
information for policy and program decisions. If it is not a 
priority at the top, it will not be a priority down the line. 
And that you are here is, I think, a testimony to your 
commitment, and for that we are grateful.
    I am going to start from my left, in introducing Craig 
Fugate. Mr. Fugate began serving in the position of 
Administrator of the Federal Emergency Management Agency in May 
2009. It has only been about 4 or 5 months. It probably seems 
like 4 or 5 years. But you are holding up well. We are glad 
that you have joined us today.
    Prior to coming to FEMA, Mr. Fugate served as Director of 
the Florida Division of Emergency Management. If there is any 
way to learn about emergency management, that is a good State 
in which to get your training. In that role, I think since 
2001, he managed 138 full-time staff and a budget of $745 
million. His agency coordinated disaster response, recovery, 
preparedness, and mitigation efforts with each of the State's 
67 counties and local governments. I come from a State with 
three counties, and some of my colleagues say that during the 
course of a year they will visit or every 2 years they try to 
visit all their counties.
    But in 2004, Mr. Fugate successfully managed the largest 
Federal disaster response in Florida history as four major 
hurricanes impacted his State in quick succession. Homeland 
Security Secretary Napolitano has called Mr. Fugate one of the 
most experienced emergency managers in the country, and he is. 
We are lucky to have him in this post.
    Rhea Suh, thank you so much for joining us. I understand 
you were sworn into office as the Assistant Secretary for 
Policy, Management, and Budget at the Department of the 
Interior in May, working with one of my old compadres from the 
Senate, Ken Salazar. I mentioned that Senator-elect Obama and 
his wife, Michelle, were in our very first orientation class 
for new Senators and spouses, and the only other Democrat in 
that class was Ken Salazar. So we have two who graduated, and 
one has gone on to be President and the other, Secretary of the 
Interior, where he works with you.
    But in your role at the Interior, you oversee, I am told 
the financial, administrative, and programmatic policy for the 
Department, including budget formulation, implementation, and 
accountability. Prior to this, I believe you served as a 
program officer at the David and Lucile Packard Foundation--
that is a big foundation; that is a big job--where you managed 
a $200 million, 6-year initiative designed to build ecological 
integrity and resilience in key land and watersheds in western 
North America. Our thanks to you and the foundation for that 
work.
    From 1998 to 2007, Ms. Suh was a program officer at the 
William and Flora Hewlett Foundation, where she managed the 
foundation's portfolio of grants designed to protect the 
ecosystems of the western part of North America.
    And during the Clinton Administration, I believe you served 
as a senior legislative assistant on the staff of Senator Ben 
Nighthorse Campbell, a Native American, a former Olympian, I 
think, as I recall, and one of my colleagues. He and I used to 
work out together in the House gym, and he is an old compadre. 
It is nice to know you have worked with Senator Nighthorse 
Campbell.
    Michelle Snyder, Acting Deputy Administrator and the Deputy 
Chief Operating Officer for the Centers for Medicare and 
Medicaid Services (CMS). With the Acting Administrator, she 
oversees daily operations and a staff of over 4,000 people. A 
big operation. Formerly, I believe you were CMS's Director of 
the Office of Financial Management and the agency's first Chief 
Financial Officer. Is that right?
    Ms. Snyder. That is right.
    Senator Carper. Under your leadership, CMS achieved its 
first clean audit opinion and developed its first comprehensive 
strategic plan on program integrity. During that time, she also 
oversaw one of CMS's most significant efforts involving the 
integration of its financial and accounting systems to better 
manage Medicare trust fund. Thank you for joining us. Thanks 
for your work.
    Dr. Paul Posner is Director of the Public Administration 
Graduate School at George Mason University. Prior to his 
current position, I understand that he directed the Federal 
budget work of the General Accounting Office for 14 years. Did 
you know anybody on our first panel?
    Mr. Posner. A few of them, yes.
    Senator Carper. I understand you are also the President of 
the American Society for Public Administration and a fellow of 
the National Academy of Public Administration. Dr. Posner, I 
understand you cut short an important California trip in order 
to be with us today, and we greatly appreciate that. We look 
forward to your testimony.
    With those introductions under our belts, Administrator 
Fugate, would you please proceed? Again, I would ask that you 
try to keep your comments to 5 minutes.
    Mr. Fugate, thanks again for your testimony. Let me again 
mention your entire testimonies will be made part of the 
record, so feel free to summarize as you see fit. Thank you. 
Please proceed.

    TESTIMONY OF W. CRAIG FUGATE,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Well, good morning, and thank you, Chairman 
Carper.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the Appendix on 
page 63.
---------------------------------------------------------------------------
    When we talk about management performance, FEMA usually 
does not come to mind as one of the leading examples on how to 
do it right.
    Senator Carper. You are probably right. That is a 
understatement.
    Mr. Fugate. But I also think there is a double edge to 
this. There is also the tendency--when we are asked to measure 
things, the natural tendency is to measure things that are easy 
to measure. That does not actually mean they change an outcome.
    I think that part of our challenge is defining what 
outcomes we are trying to achieve and then identifying the 
processes that will get us to that outcome. Just because it may 
be easy to measure does not necessarily lead to a successful 
outcome.
    It is our challenge at FEMA, as we look at how do we define 
what an outcome is and then make sure that we have the 
processes and procedures to support that outcome, to achieve 
what we are trying to achieve on behalf of the governors that 
we support in a disaster. What is it and how are we going to 
measure it? And, more importantly, how do we hold managers 
accountable to that performance?
    As we were discussing earlier, you cannot fix what you do 
not measure. You do not know where you are going if you don't 
have a destination. And without some way to tell how fast the 
speedometer is going, you do not know when you are going to get 
there.
    So part of this comes back to, as we look at what we are 
doing at FEMA, is to make sure that we understand from the top 
down we have to be accountable as to the leadership for those 
outcomes. We have to be accountable that if we accept and state 
that these are going to be our performance measures, that we 
actually pay attention to it, and we look at what our 
performance is, we look at what the root issues are if we are 
not achieving that performance, and we take action. We do not 
wait for other folks to come in and tell us we need to improve. 
We self-improve ourselves, and we have to build the tools to do 
that.
    Secretary Napolitano and I are committed to defining these 
outcomes, providing these measures, and holding ourselves and 
our team accountable to achieving that improvement process. Mr. 
Chairman, to give you an example--I have several, but one which 
you are very familiar with. In the Post-Katrina Emergency 
Management Reform Act, we were defining a national housing 
strategy. Well, if you read the national housing strategy, it 
talks about process.
    I came back and asked the team, I said, ``Well, I want to 
give you a number. Can you provide, and how would you provide, 
housing in a disaster for half a million families within 60 
days of an event occurring?''
    That challenged that strategy because it was not based upon 
an outcome; it was based upon describing process.
    How can we know we are getting close to or have built the 
tools to get us where we needed to be based upon the disasters 
we face if all we are doing is talking about a process and a 
strategy?
    And so these are the steps we are taking, and sometimes, as 
you say, and has been presented, sometimes the things we try to 
measure may not necessarily be what the outcome is, and that is 
where we are trying to go.
    The other part of this is to provide tools so that we have 
that dashboard approach, so we can look at things and see where 
we are and are we getting performance measures.
    I want to talk about something else that I think is very 
dear to you, Mr. Chairman. Coming up in October, we will be 
remembering the losses in this country, the line-of-duty deaths 
of firefighters and emergency medical personnel. You know what 
one of the leading causes of deaths in this country for these 
folks, line-of-duty deaths is? Going to and coming back from 
the emergency itself.
    I sat down with Chief Cochran. I said that we are 
collecting this data, but where is our emphasis on changing 
this? We have programs in place. We are putting emphasis on 
this. But we need to do more than just talk about dying and 
getting severely injured going to and coming from an emergency 
being unacceptable to how do we put some measures on that. Are 
our programs effective? So rather than just reporting out how 
many line-of-duty deaths are traffic crashes and how many 
injuries are traffic crashes, we want to look at what our data 
has been for the last couple years and say let us cut it in 
half. Now let us start driving our programs so we get an 
outcome that saves lives.
    You should not have deaths responding to and coming back 
from emergencies. Everybody should go home after the emergency. 
But if we just talk about how we measure the numbers but we do 
not say we need to reduce the numbers and now drive our 
programs to achieve that, we will continue to report line-of-
duty deaths without a change in outcome.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you very much. Just coming out of our 
markup over in the Finance Committee on health care reform, 
there was a lot of discussion about defensive medicine and what 
we might want to do to reduce the incidence of defense medicine 
and improve the quality of health care outcomes and maybe 
reduce the frequency of litigation and medical malpractice. And 
what I think we are going to probably end up doing is really 
directing a series of robust demonstration projects in States 
using different approaches--health courts, safe harbors--a 
certification process. Let us say Dr. Posner is an actual 
medical doctor, he is my doctor, and he takes off the wrong leg 
in a procedure, and I want to sue him. In my State now, before 
I can do that, I have to go before a panel of people who are 
trained experts and say, ``This is my case. What do you 
think?'' And if they do not think I have a case, I do not make 
the case in court. So that would be an approach where--some 
States have caps on medical malpractice, non-economic damages, 
and so we will test a couple of those as well.
    The idea is to see what is working in different States to 
robustly test them, analyze the results, and then hopefully 
encourage States to do more of what works and less of what does 
not.
    Ms. Suh, you may proceed.

 TESTIMONY OF RHEA S. SUH,\1\ ASSISTANT SECRETARY FOR POLICY, 
    MANAGEMENT, AND BUDGET, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Suh. Mr. Chairman, thank you. I sincerely appreciate 
the opportunity to appear before you today to talk about the 
management issues at the Department of the Interior. As we said 
earlier, in the interest of time, I will be submitting my full 
testimony for the record, and I will summarize my remarks 
briefly.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Suh appears in the Appendix on 
page 71.
---------------------------------------------------------------------------
    One of my highest priorities as Assistant Secretary for 
Policy, Management, and Budget at the Department of the 
Interior is a rigorous and renewed focus on management. 
Effective management begins with a clear articulation of a 
success for the organization. If you do not know where you are 
going, any road is going to take you there.
    Senator Carper. Did you guys collaborate on the testimony? 
[Laughter.]
    That was pretty good.
    Ms. Suh. So we are communicating very clearly with 
employees about the direction that the Department is taking, 
and we are building in performance information that holds them 
accountable for the achievement of these goals. But doing that 
well is not easy. Let me give you a few examples of the 
challenges and tell you how we are beginning to address these 
challenges. For these purposes, let us consider our national 
parks and the issue of restoration.
    First, performance information has to be specific enough 
for implementation, so for restoration purposes, we need 
information about restoration for every national park. Each 
national park is unique. We have 391 units of them. So 
collecting individual park information is critical. It is 
relevant to managers, and it allows us to hold them accountable 
and to set goals for what we can achieve. And yet performance 
information must also aggregate so that we can make agency-
level decisions.
    Because there are 391 national park units, we must be able 
to pull the information up about restoration across these parks 
so that we know what is going on with the entire system. We are 
doing that by creating common measures that can be aggregated. 
But we must also be able to communicate about and assess what 
we are doing beyond just the national parks. We are, after all, 
a large and fairly complex agency of 70,000 people organized 
within nine different bureaus. We want all of our employees to 
know that what they do fits into a larger priority set within 
the Department.
    National Parks Service employees who work on restoration 
need to know why their work makes sense in the larger ambitions 
and mission of the agency. We are thus developing a framework 
that pulls together the vision for the entire Department.
    All of these challenges are really why we are revising the 
current existing strategic plan to reflect Secretary Salazar's 
new vision and to provide a streamlined framework that embodies 
our existing functions. This framework will enable us to create 
a feedback loop that links policy, human resources, and 
financial information at the resource level up to the 
Department level and back down.
    Specifically, we will refine and refocus our existing 
performance benchmarks to ensure that we are not only measuring 
the things that are meaningful, but that the emphasis is less 
on compliance and more on performance. We will use these 
measures both as a mechanism to prioritize resources, expanding 
the link between performance and resource allocations as well 
as the tool to establish individual responsibility and 
accountability associated with these goals.
    We deeply appreciate your interest in performance 
management and very much support the need to expand the 
effective use of performance management data. The GAO report 
was very helpful to us, and as I have described, we are 
implementing many of its recommendations.
    Secretary Salazar, has established a new and very high bar 
of accountability for the Department. We take this quite 
seriously, and our renewed effort in expanding the meaningful 
use of performance measures is one of the most important tools, 
I believe, in meeting these high standards and in successfully 
accomplishing our critical resource protection and management 
goals.
    Mr. Chairman, that concludes my statement. Obviously, I 
would be pleased to answer any questions that you have.
    Senator Carper. I will just ask one quick one before I turn 
to Ms. Snyder. There are 391 national parks or units of 
national parks in all across the country. Are there any States 
that do not have a national park?
    Ms. Suh. There are no States that do not have a national 
park unit.
    Senator Carper. The answer is there is one. The first State 
to ratify the Constitution, the First State has no national 
park, and Ken Salazar was in our State earlier this year to 
announce that probably next year--you know the saying in the 
Bible, the first shall be last, the last shall be first. Well, 
the First State will become next year the last State to host a 
national park.
    Ken Burns, the documentary film maker of great renown, has 
completed a new film series. It is going to debut very soon, if 
it has not already, on national public TV, and it is called 
``America's Best Idea: The National Park.'' He grew up in 
Delaware. And maybe we will have a sequel to that.
    Ms. Suh. I stand corrected. Thank you, sir.
    Senator Carper. You bet. Ms. Snyder, welcome.

 TESTIMONY OF MICHELLE SNYDER,\1\ ACTING DEPUTY ADMINISTRATOR 
 AND DEPUTY CHIEF OPERATING OFFICER, CENTERS FOR MEDICARE AND 
MEDICAID SERVICES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Snyder. Good morning, Mr. Chairman. It is an honor and 
a pleasure to be here today to discuss with you CMS's efforts 
to increase the use of performance information within the 
agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Snyder appears in the Appendix on 
page 74.
---------------------------------------------------------------------------
    In total, as CMS outlays about $700 billion a year on 
health care expenditures, which is one of the largest 
categories of Federal Government spending. The Administration, 
the Congress, beneficiaries, and taxpayers clearly expect CMS 
to be accountable for the efficient and effective 
administration of the oversight of the Medicare, Medicaid, and 
Children's Health Insurance programs. We take this role very 
seriously because we know that this oversight impacts over 98 
million lives in this country. And our experience shows just 
how important it has been, and continues to be, to use 
performance information in the evaluation and running of those 
programs.
    When I talk about performance information, I really mean 
the data that is used by CMS to measure our progress towards 
the Department and agency goals that lead to the improvement of 
programmatic oversight, better quality of care for our 
beneficiaries, and more effective management of staff and 
resources.
    As you heard previously from GAO, CMS has made great 
strides in the use of data to assist in making key agency 
decisions. However, we also hear your charge that no matter how 
well we have been doing, we can always do better.
    One area that we focused on is appropriate oversight of our 
programs. An example is the CFO audit that CMS undergoes 
annually. In early audits, we were unable to provide sufficient 
documentation to support the amounts reported in our financial 
statements.
    We worked hard to fix that by putting plans in place to 
improve the collection of financial data, and we tracked our 
progress in strengthening our internal financial controls and 
addressing material weaknesses. Today a detailed corrective 
action plan is developed, monitored, and implemented for each 
finding in the CFO audit. This tracking has led to clean 
opinion audit ratings for each of the last 10 fiscal years, and 
a reduction in the number of material weaknesses that have, 
therefore, strengthened our financial oversight of the Medicare 
program.
    Performance information is also integral to achieving our 
vision of a transformed and modernized health care system and 
instrumental in improving the quality of health care for those 
98 million Medicare, Medicaid, and CHIP beneficiaries that I 
mentioned. For instance, two CMS quality initiatives that rely 
on performance information include the Nursing Home Compare 
website that enables consumers, providers, States, and 
researchers to compare information on nursing homes in 
particular geographic areas.
    Many nursing homes have also made significant improvements 
in the care provided to residents, recording a decrease in the 
use of restraints and number of beneficiaries suffering 
pressure ulcers in nursing homes.
    And one other website I would like to mention is----
    Senator Carper. This sounds familiar.
    Ms. Snyder. It sounds familiar. And the Hospital Compare 
website, which also includes public reporting and comparisons 
of hospital performance information. We have seen improvement 
in the results of the hospitals, including a decrease in the 
percentage of surgical patients receiving incorrect surgical 
care and antibiotics, which in turn reduces mortality, 
morbidity, and rehospitalization rates.
    We continue to plan to build on these quality initiatives. 
Performance measurement is essential for health care providers 
to learn where they stand, and public reporting can be a 
powerful catalyst for improvement.
    Finally, I would just like to say that CMS has developed a 
series of strategies to utilize performance information to 
improve the efficiency and management of our staff. A key 
strategy is implementing performance plan evaluations for all 
CMS employees. These plans are developed with clear measurable 
and observable standards. Initially, and intentionally, the 
performance measures selected fit under and link with HHS and 
CMS goals. This cascading of goals, as we call it, allows CMS 
to align each employee's work with our overall objectives. 
Through better use of performance information, we also plan to 
provide even more data tools to employees in their 
decisionmaking.
    This early work that we put in place is bearing fruit. We 
have been recognized for our improvements, but we do want to 
continue to evaluate and monitor our progress and improve on 
what we are doing.
    One example where we are also using the performance 
measures, which I think is something that is very important to 
folks in this room, is implementation of the Recovery Act at 
CMS. We are building on what we have learned in other parts of 
the agency in terms of project and performance management 
experience. We have designed a project management officer to 
manage and monitor implementation and ensure that the 
Department has information timely to work with us in 
implementing this key legislation.
    In addition, we are employing a tool which we call the 
Priority Project Tracker (PPT), that is giving us enhanced 
capability to look at dependencies across our projects and 
components and ensure timely information is made available to 
senior leadership in the agency.
    We look forward to working with you to make sure that 
performance information is available to ensure operational 
risks are immediately identified, employees are held 
accountable for meeting the agency's goal, and our overall 
performance is easily measured.
    Thank you for allowing me to share how CMS uses performance 
information, and I look forward to answering any questions you 
may have.
    Senator Carper. Thank you so much.
    When we go into the questions--I will just give you a heads 
up. You mentioned the stimulus package. One of the issues of 
great interest to us, particularly as we approach health care 
reform legislation, is the money that is in the package, $20 
billion for health IT, the implementation of health IT. I might 
be asking you just to share some thoughts with us as to how we 
are doing in terms of getting that money out there and putting 
it to work.
    Dr. Posner, again, thanks so much. We are delighted. Again, 
we appreciate your being willing to change your own schedule to 
be here, and we are deeply grateful. Thank you.

TESTIMONY OF PAUL L. POSNER,\1\ DIRECTOR, PUBLIC ADMINISTRATION 
PROGRAM, DEPARTMENT OF PUBLIC AND INTERNATIONAL AFFAIRS, GEORGE 
                        MASON UNIVERSITY

    Mr. Posner. Thank you, Mr. Chairman. Thank you for holding 
this hearing, and I want to tell you my personal metric for 
gauging the maturation of performance in government, 10 years 
ago, when I used to do these hearings, there were about five 
people in the audience, and now you have filled the room. So I 
think that is a good sign that there is greater interest here. 
And it is important----
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Posner appears in the Appendix on 
page 89.
---------------------------------------------------------------------------
    Senator Carper. When you are running a budget deficit, in 
the last 8 years we ran up as much new debt as we did in the 
first 208 years of our Nation's history, this year on track to 
our biggest budget deficit ever, and if we look forward to the 
next 10 years and $9 trillion of additional debt, we need to 
focus on improper payments, we need to focus on performance. 
And I think it is kind of like you guys and gals are going to 
be the stars and help point us in the right direction, and we 
need to be right there leading the way. Thank you.
    Mr. Posner. Absolutely, you stated the importance much 
better than I could have.
    I think when we think about where we are, it is a good time 
to take stock. We have made surprising progress. Those who were 
there when the GPRA was passed in the middle of the night 
thought this would go in the dust bin of history along with PPB 
and ZBB and the rest, but it has not. It has stayed around for 
a long time. I think we have developed a supply side very well. 
Agencies have developed data and information thanks to PART and 
to, obviously GPRA.
    We still have concerns about the demand for this 
information. Managers are using this more, I think, for their 
own needs, which is very important. What we need to think about 
is how can we incent decisionmakers and the Congress and the 
Executive to use it for budget issues and the like.
    When we think about how to use this information in 
budgeting, by the way, one important thing to recognize is to 
set our expectations right. This is not going to eliminate 
politics from budgeting. It is not going to say if the 
performance goes up, we are going to increase money; if 
performance goes down, we are going to decrease money. We would 
not want to say if drug abuse goes up, we are going to cut 
money for drug programs. What it does, it provides questions 
for people to think about, not answers, which are properly 
political and priorities, among other things.
    So, with that in mind, how can we think about keeping the 
ball rolling and generating more use of this information. I 
have an agenda that I have laid out in the testimony.
    First of all, continuity is very important. I am pleased to 
see this Administration is continuing the effort of the 
previous two Administrations to put high-level emphasis on this 
from OMB down, and I think that trickles to the agencies and 
incents even Congress to take notice of this.
    Second, I think it is important to think about this as 
multifaceted. We have agencies, OMB and the Congress, all who 
have to have a line of sight between performance and their own 
interests. And so this is going to look, I think, different for 
different kinds of actors in our system.
    First of all, I think it is important to keep the 
foundations going. This is a long-term enterprise getting 
performance right, if you will, particularly in the Federal 
level, much more difficult than at the local level. I started 
my career in the New York City budget office. Performance was 
pretty easy. People in Queens knew when the garbage would be 
picked up. We measured it, and we were able to improve things.
    Now, as Ms. Steinhardt said in her testimony, we are 
dealing with complex things where the Federal Government really 
writes the checks and issues the rules and leaves it to other 
people--State and local governments and nonprofits--to really 
do the work. How do you instill performance motivations and 
incentives in people who do not work for you, who have 
different values and interests? That is a really difficult 
challenge for Federal officials, so we need to think about how 
we get our grants and contracts aligned with performance as 
well as direct Federal employees.
    Then think about how we get our budget structures aligned. 
The appropriations and budget structures are oriented in many 
different ways. Some are focused on inputs. Some are focused on 
organizations. Some are focused on performance goals. It is not 
consistent. Other nations and States have kind of reformed 
their budget structures to focus decisionmakers on performance-
related units of analysis. We have a long way to go there. 
Obviously, Congress has to be front and center.
    We need to think about imparting a more strategic focus to 
this. Yes, agencies are important, but many things that we care 
about as a Nation, like food safety, are scattered around 14 
agencies. Job training, we have 60 programs. Student aid and 
higher education assistance, we have a welter of tax credits, 
loans, guarantees, and grants, all of which sing off of 
different pages and send different incentives.
    How can we figure out a way to be more strategic about what 
we are trying to achieve in these broad mission areas? I think 
it is one of the next stages of performance as we move forward.
    We need to keep the best of PART, which was a dedication to 
reexamine programs periodically, but we need to do it, as has 
been said here, in a more selective, targeted way, and a way 
that engages the interests of everybody in the process.
    The last point is the Congress. I want to say that the 
Congress is not the performance wasteland that many people 
portray. In fact, this hearing testifies to that. The use of 
performance in authorizing and appropriation committees is 
actually fairly impressive.
    How can Congress better select key areas in performance to 
review each year? How can it develop its own capacity to target 
key areas that need to be reviewed? Can it work with the 
President to agree on a set of targets and actually collaborate 
on some kind of an assessment process like they do in the 
Netherlands, like you see in other countries? Can we do that 
here? It is a real question, obviously.
    Can you marshal the forces of my old agency, the GAO, and 
others to help you in this process, to synthesize what amounts 
to almost a fire hydrant of information? One of the problems 
with performance is we have too much information. We need a 
synthesis and filtering of that to make is useful for 
decisionmakers.
    And, finally, I make this point in the testimony which I 
have been making for years when I was at GAO. The one process 
that we have that annually looks at all programs together is 
the congressional budget process. The question is whether there 
is a way to take the budget resolution and make that into a 
performance vehicle. Can the budget resolution, in other words, 
become more of a performance resolution alongside its 
traditional functions? That is the question for the future.
    Thank you.
    Senator Carper. Good. Thank you. Thank you very much for 
those comments. You got a lot in, in a relatively short period 
of time.
    One of the things that we are talking about, using 
performance in making budgetary decisions, we had a great 
debate a month or so ago in the Senate on the future of the F-
22 fighter aircraft. It is an aircraft that is built--the 
components are built in maybe 30, 40, 45 States. And so there 
are a lot of States that have an economic interest in the 
planes or sub-assemblies of the planes. They are very 
expensive. And along with Senator McCain and Senator Levin, I 
was very active in the floor debate with my colleagues saying, 
a plane that we have been building all these years, its 
mission-capable rate is down around 50 percent, where we spend, 
I think, about $40,000 per flight hour for the aircraft that 
has never flown a single mission in Iraq or Afghanistan, maybe 
that is not an airplane we should continue to build several 
hundred more.
    By a fairly decent margin, we voted to pull the plug, and 
that sort of thing does not happen often enough. But we did use 
pretty good performance data, and I think it was instructive 
and helpful to my colleagues as they made the tough decisions 
for some of them.
    I need to leave so I am not going to keep you long. I have 
been summoned back into our Finance Committee markup. But let 
me just ask a question, if I could, of all of you.
    What suggestions do you have for the Obama Administration 
on how to design and structure their new performance and 
analysis framework? How can OMB support your efforts to create 
a more results-oriented culture in your organization? I would 
ask this really of the first three witnesses on this panel.
    Mr. Fugate, would you just lead us off?
    Mr. Fugate. Thank you, Mr. Chairman. I actually consider 
myself part of the President's team.
    Senator Carper. You are.
    Mr. Fugate. Within the team, I think my experience has been 
that you have to define what the outcome is. You have to then 
define what is your performance measures. You have to have 
either a dashboard or a reporting system that everybody can 
see. And then you have to hold managers accountable for those 
outcomes given the resources and other external factors that 
may affect the outcome. But you have to keep focused in on 
where you are going.
    And that is the thing that oftentimes is the hardest. You 
identify what you are trying to do and you identify performance 
measures, and then other issues come up. And then you start 
getting away from that. And then you start getting distracted. 
And then it no longer is a management issue, because we are 
looking at something else.
    That either tells me that we were not serious about 
performance measures or we were not measuring the right thing, 
because it was not important enough to the organization to stay 
focused on it.
    I think that is where we have to work in partnership with 
OMB, is make sure we are measuring things that are important to 
FEMA, that we hold our leadership accountable, we give them the 
tools to measure it, and we are not out there just measuring 
things that will get distracted and chase that rabbit down 
another hole. It is core to our mission. Everybody understands 
and gets why we have to improve, and we hold ourselves 
accountable to that in such a way that, when you ask, I can 
show you our report card, and I can show you what we are doing 
to get better.
    Senator Carper. Good. Thank you. I like to use a football 
analogy. Vince Lombardi, legendary former football coach of the 
Green Bay Packers, used to say, ``Unless you are keeping score, 
you are just practicing.'' And I would sort of lead that to the 
next step. I think the next step would be not just unless you 
are keeping score you are just practicing, but unless you 
actually study the films of the games and the films of not only 
your own games but your opponents' games, and sort of drill 
down like we are doing in our schools, you are not doing 
yourself much good. So thank you.
    Ms. Suh.
    Ms. Suh. I have two specific responses. First, on what I 
think is working well, in the 2011 budget formulation process, 
as we have talked about earlier, we are working with OMB on 
something called high-priority performance goals. I think the 
goals which are essentially small logic models or strategic 
plans, if you will, are enormously helpful for us as a 
Department in defining our priorities and figuring out what our 
road maps are amongst those priorities. In addition, having it 
be tied to an actual budget process I think is an enormously 
helpful process that we are working through right now with OMB. 
So on that side, I think that is working very well.
    In terms of potential suggestions, I think all of us within 
the Department and within OMB seem to find ourselves in a 
disaggregated world, a world that has performance managers, a 
world that has budget managers, a world that has policy people, 
and those things are not often really working together as well 
as they can. Even in the structures that exist at OMB and the 
structures that exist at the Department of Interior, you tend 
to, again, get these silos of people that are only focusing on 
one thing and not really understanding the connections between 
them.
    And so as we struggle through this within our own agency, 
it would be helpful to be able to partner with OMB in 
developing ways to break down these silos and, again, to really 
think through all of the elements of budget performance 
management for personnel and policy systematically to 
ultimately perform much more satisfactorily.
    Senator Carper. Thank you. Ms. Snyder.
    Ms. Snyder. I think one of the things that would be most 
helpful to us from OMB is a focus on really what are cross-
cutting goals for government. All of us contribute in varied 
and different ways to overall achievements that are needed in 
government. So helping us know what those cross-cutting goals 
are and how we could contribute to that, I think, is important.
    The other thing is support for the identification of what 
we call the ``vital few.'' In our programs, we literally could 
have thousands and thousands of performance measures if we went 
down that route. But identifying what are the vital few, 
actually collecting the data, and then knowing that you have a 
demonstrated result that you are held accountable for I think 
is really the key to making it work inside an agency and really 
anywhere in government.
    And the other thing that I would say is this is one of 
those things you cannot just talk about it once a year, so 
talking about it, having regular, discussions, whether it is 
through some council mechanism for performance improvement, 
whatever that may take, it has to be kept on the front burner, 
or it just simply gets caught up in the press of other 
business.
    And I think the only other thing that I would say is there 
is a big difference between just reporting on things and folks 
looking at it to see that you really did demonstrate a result, 
a change, an improvement. And so talking about those changes 
and improvement versus just saying we collected these data, I 
think, is absolutely key to really making it a real program.
    Senator Carper. Good. Thank you.
    Dr. Posner, I saw you nodding your head in agreement with 
some of what Ms. Snyder was saying. Do you want to underline--
--
    Mr. Posner. I thought it was very good. I appreciate those. 
If I could just make a distinction, OMB wears two hats--the 
budget hat and the management hat. The budget hat, good 
budgeting includes good performance analysis. It always had. 
Small ``p.'' I think the budget process needs to kind of become 
more performance oriented so that the process is about a 
performance discussion: What metrics are we going to achieve? 
What targets are we going to achieve with the resources we 
have? I think they have made progress in that area, starting 
from GPRA, and I think that has got to continue.
    But the management hat is different. The management hat 
involves this kind of ironic way of promoting, learning, and 
innovation from the top down. Not easy to do. Scorecards and 
shame do not necessarily produce that. They produce short-term 
gain, not necessarily long-term change. So I think the 
challenge and trick for OMB is how can you instigate a culture 
of learning and innovation that these people are talking about 
here from the top down, and that is what remains to be seen.
    Senator Carper. All right. Good.
    Ms. Snyder, I said I was going to come back and raise the 
issue of information technology, trying to infuse and really 
expand the use of information technology in the delivery of 
health care. There is about a $20 billion allocation in the 
stimulus package. I had not planned on raising this, but any 
comment you could give us, brief comments, in terms of how we 
are using that money, how we are putting it to use?
    Ms. Snyder. Well, the first thing we did when we got the 
legislation was we used some of our performance management 
tools. We took our Project Planning and Tracker, and we sat 
down and we figured out what provisions have to get implemented 
and when. How do you bring this program up to achieve 
congressional intent? That is well underway. We have mapped all 
of that.
    The other thing is the key partners in this, in HHS, are 
the Office of the National Coordinator, Dr. Blumenthal, and 
working with CMS. We are joined, literally joined at the hip on 
this and are working through the issues.
    We believe that we are going to be on time in getting the 
first regulation out so that we will be able to get information 
back on what constitutes meaningful use, so we look forward to 
working through that regulatory process. We are anticipating 
probably a number of comments to that. There is a great 
interest, as in the provider community.
    We are also starting to look at what do we need to do 
operationally to change underlying systems to bring all that 
together to get the program up and running and to get payments 
out the door, as Congress intended, as soon as we can.
    It is a big job. Right now we look like we are on schedule, 
according to our tracker right now.
    Senator Carper. Great. Thank you for that update and for 
the approach you all are taking to it.
    I just received a more urgent summons to go to the Finance 
Committee markup, so this will be my last question, 
unfortunately, and I am going to direct it to Dr. Posner, if I 
could.
    You talked a bit about this already, but how can this new 
Administration get agency leaders to use performance 
information to improve their management decisions? I realize 
you talked about this a bit already, but I want you to flesh it 
out just a little bit more. How can the leaders of an 
organization get its managers to pay more attention to outcomes 
to achieve superior performance? Again, you have spoken to that 
as well, but just kind of wrap it together in one response.
    Mr. Posner. I think it is partly setting the tone at the 
top that has been talked about here and setting a series of 
discrete goals and objectives. I think the problem with many 
initiatives at the State, local, and Federal levels, there is 
too much and there are too many goals, too many data points. 
And so it is the vital few, I think was mentioned, that is very 
important, and targeting that and being persistent and 
consistent with that in all phases of the process, including 
paying attention to it in budgeting is very important.
    Senator Carper. Thank you. I feel badly that I have to go, 
but what we are working on just down the hall in the next 
building is, I think, of historic consequence. What we are 
doing here is really of great consequence as well. And as I 
think Dr. Posner reflected, the number of people in this 
audience today as compared to the number that might have been 
here a few years ago is indicative that folks are starting to 
better understand that importance.
    We are looking at ways to enable me to maybe be in two 
places at once, and I do not think we are going to allow human 
cloning anytime soon. I joke with my colleagues that maybe what 
we could is create cardboard cutouts of us, and the real person 
could be do in one place, but maybe we have a cardboard cutout 
here in this chair and a member of my staff--we would cut out 
the lips, and then a member of my staff would be behind the 
cardboard cutout and just ask the questions and say--people 
always say that at the end of the hearing, ``It was a good 
hearing, but he seemed stiff.'' [Laughter.]
    We have not figured out how to perfect this just yet, but I 
am really glad that I could be here. I am really glad that each 
of you could be here, and our first two witnesses, one of whom 
is still here. And I am grateful for the time and the thought 
that you have put into your presentations, and this is 
important. This is important stuff, and we are going to do 
better. We have got to do better as a Nation and as a 
government.
    This hearing record will be open for the next 2 weeks for 
the submission of some additional statements and questions. I 
expect we will have some. There will not be a huge volume, but 
there will be some. And if you receive those, I would just ask 
for your cooperation in providing prompt responses to those 
questions that might be submitted for the record.
    With that, one last thank you, and on behalf of the people 
of our country, the taxpayers of our country, I especially want 
to say thank you.
    With that, this hearing is adjourned.
    [Whereupon, at 12:15 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3843.001

[GRAPHIC] [TIFF OMITTED] T3843.002

[GRAPHIC] [TIFF OMITTED] T3843.003

[GRAPHIC] [TIFF OMITTED] T3843.004

[GRAPHIC] [TIFF OMITTED] T3843.005

[GRAPHIC] [TIFF OMITTED] T3843.006

[GRAPHIC] [TIFF OMITTED] T3843.007

[GRAPHIC] [TIFF OMITTED] T3843.008

[GRAPHIC] [TIFF OMITTED] T3843.009

[GRAPHIC] [TIFF OMITTED] T3843.010

[GRAPHIC] [TIFF OMITTED] T3843.011

[GRAPHIC] [TIFF OMITTED] T3843.012

[GRAPHIC] [TIFF OMITTED] T3843.013

[GRAPHIC] [TIFF OMITTED] T3843.014

[GRAPHIC] [TIFF OMITTED] T3843.015

[GRAPHIC] [TIFF OMITTED] T3843.016

[GRAPHIC] [TIFF OMITTED] T3843.017

[GRAPHIC] [TIFF OMITTED] T3843.018

[GRAPHIC] [TIFF OMITTED] T3843.019

[GRAPHIC] [TIFF OMITTED] T3843.020

[GRAPHIC] [TIFF OMITTED] T3843.021

[GRAPHIC] [TIFF OMITTED] T3843.022

[GRAPHIC] [TIFF OMITTED] T3843.023

[GRAPHIC] [TIFF OMITTED] T3843.024

[GRAPHIC] [TIFF OMITTED] T3843.025

[GRAPHIC] [TIFF OMITTED] T3843.026

[GRAPHIC] [TIFF OMITTED] T3843.027

[GRAPHIC] [TIFF OMITTED] T3843.028

[GRAPHIC] [TIFF OMITTED] T3843.029

[GRAPHIC] [TIFF OMITTED] T3843.030

[GRAPHIC] [TIFF OMITTED] T3843.031

[GRAPHIC] [TIFF OMITTED] T3843.032

[GRAPHIC] [TIFF OMITTED] T3843.033

[GRAPHIC] [TIFF OMITTED] T3843.034

[GRAPHIC] [TIFF OMITTED] T3843.035

[GRAPHIC] [TIFF OMITTED] T3843.036

[GRAPHIC] [TIFF OMITTED] T3843.037

[GRAPHIC] [TIFF OMITTED] T3843.038

[GRAPHIC] [TIFF OMITTED] T3843.039

[GRAPHIC] [TIFF OMITTED] T3843.040

[GRAPHIC] [TIFF OMITTED] T3843.041

[GRAPHIC] [TIFF OMITTED] T3843.042

[GRAPHIC] [TIFF OMITTED] T3843.043

[GRAPHIC] [TIFF OMITTED] T3843.044

[GRAPHIC] [TIFF OMITTED] T3843.045

[GRAPHIC] [TIFF OMITTED] T3843.046

[GRAPHIC] [TIFF OMITTED] T3843.047

[GRAPHIC] [TIFF OMITTED] T3843.048

[GRAPHIC] [TIFF OMITTED] T3843.049

[GRAPHIC] [TIFF OMITTED] T3843.050

[GRAPHIC] [TIFF OMITTED] T3843.051

[GRAPHIC] [TIFF OMITTED] T3843.052

[GRAPHIC] [TIFF OMITTED] T3843.053

[GRAPHIC] [TIFF OMITTED] T3843.054

[GRAPHIC] [TIFF OMITTED] T3843.055

[GRAPHIC] [TIFF OMITTED] T3843.056

[GRAPHIC] [TIFF OMITTED] T3843.057

[GRAPHIC] [TIFF OMITTED] T3843.058

[GRAPHIC] [TIFF OMITTED] T3843.059

[GRAPHIC] [TIFF OMITTED] T3843.060

[GRAPHIC] [TIFF OMITTED] T3843.061

[GRAPHIC] [TIFF OMITTED] T3843.062

[GRAPHIC] [TIFF OMITTED] T3843.063

[GRAPHIC] [TIFF OMITTED] T3843.064

[GRAPHIC] [TIFF OMITTED] T3843.065

[GRAPHIC] [TIFF OMITTED] T3843.066

[GRAPHIC] [TIFF OMITTED] T3843.067

[GRAPHIC] [TIFF OMITTED] T3843.068

[GRAPHIC] [TIFF OMITTED] T3843.069

[GRAPHIC] [TIFF OMITTED] T3843.070

[GRAPHIC] [TIFF OMITTED] T3843.071

[GRAPHIC] [TIFF OMITTED] T3843.072

[GRAPHIC] [TIFF OMITTED] T3843.073

[GRAPHIC] [TIFF OMITTED] T3843.074

[GRAPHIC] [TIFF OMITTED] T3843.075

[GRAPHIC] [TIFF OMITTED] T3843.076

[GRAPHIC] [TIFF OMITTED] T3843.077

[GRAPHIC] [TIFF OMITTED] T3843.078

[GRAPHIC] [TIFF OMITTED] T3843.079

[GRAPHIC] [TIFF OMITTED] T3843.080

[GRAPHIC] [TIFF OMITTED] T3843.081

[GRAPHIC] [TIFF OMITTED] T3843.082

[GRAPHIC] [TIFF OMITTED] T3843.083

[GRAPHIC] [TIFF OMITTED] T3843.084

[GRAPHIC] [TIFF OMITTED] T3843.085

[GRAPHIC] [TIFF OMITTED] T3843.086

[GRAPHIC] [TIFF OMITTED] T3843.087

[GRAPHIC] [TIFF OMITTED] T3843.088

[GRAPHIC] [TIFF OMITTED] T3843.089

[GRAPHIC] [TIFF OMITTED] T3843.090

[GRAPHIC] [TIFF OMITTED] T3843.091

[GRAPHIC] [TIFF OMITTED] T3843.092

[GRAPHIC] [TIFF OMITTED] T3843.093

[GRAPHIC] [TIFF OMITTED] T3843.094

[GRAPHIC] [TIFF OMITTED] T3843.095

[GRAPHIC] [TIFF OMITTED] T3843.096

[GRAPHIC] [TIFF OMITTED] T3843.097

[GRAPHIC] [TIFF OMITTED] T3843.098

[GRAPHIC] [TIFF OMITTED] T3843.099

[GRAPHIC] [TIFF OMITTED] T3843.100

[GRAPHIC] [TIFF OMITTED] T3843.101

[GRAPHIC] [TIFF OMITTED] T3843.102

[GRAPHIC] [TIFF OMITTED] T3843.103

[GRAPHIC] [TIFF OMITTED] T3843.104

[GRAPHIC] [TIFF OMITTED] T3843.105

[GRAPHIC] [TIFF OMITTED] T3843.106

[GRAPHIC] [TIFF OMITTED] T3843.107

[GRAPHIC] [TIFF OMITTED] T3843.108

[GRAPHIC] [TIFF OMITTED] T3843.109

[GRAPHIC] [TIFF OMITTED] T3843.110

[GRAPHIC] [TIFF OMITTED] T3843.111

[GRAPHIC] [TIFF OMITTED] T3843.112

[GRAPHIC] [TIFF OMITTED] T3843.113

[GRAPHIC] [TIFF OMITTED] T3843.114

[GRAPHIC] [TIFF OMITTED] T3843.115

[GRAPHIC] [TIFF OMITTED] T3843.116

[GRAPHIC] [TIFF OMITTED] T3843.117

[GRAPHIC] [TIFF OMITTED] T3843.118

[GRAPHIC] [TIFF OMITTED] T3843.119

[GRAPHIC] [TIFF OMITTED] T3843.120

[GRAPHIC] [TIFF OMITTED] T3843.121

[GRAPHIC] [TIFF OMITTED] T3843.122

[GRAPHIC] [TIFF OMITTED] T3843.123

[GRAPHIC] [TIFF OMITTED] T3843.124

[GRAPHIC] [TIFF OMITTED] T3843.125

[GRAPHIC] [TIFF OMITTED] T3843.126

[GRAPHIC] [TIFF OMITTED] T3843.127

[GRAPHIC] [TIFF OMITTED] T3843.128

[GRAPHIC] [TIFF OMITTED] T3843.129

[GRAPHIC] [TIFF OMITTED] T3843.130

[GRAPHIC] [TIFF OMITTED] T3843.131

[GRAPHIC] [TIFF OMITTED] T3843.132

[GRAPHIC] [TIFF OMITTED] T3843.133

[GRAPHIC] [TIFF OMITTED] T3843.134

[GRAPHIC] [TIFF OMITTED] T3843.135

[GRAPHIC] [TIFF OMITTED] T3843.136

[GRAPHIC] [TIFF OMITTED] T3843.137

[GRAPHIC] [TIFF OMITTED] T3843.138

[GRAPHIC] [TIFF OMITTED] T3843.139

[GRAPHIC] [TIFF OMITTED] T3843.140

[GRAPHIC] [TIFF OMITTED] T3843.141

[GRAPHIC] [TIFF OMITTED] T3843.142

[GRAPHIC] [TIFF OMITTED] T3843.143

[GRAPHIC] [TIFF OMITTED] T3843.144

[GRAPHIC] [TIFF OMITTED] T3843.145

[GRAPHIC] [TIFF OMITTED] T3843.146

[GRAPHIC] [TIFF OMITTED] T3843.147

[GRAPHIC] [TIFF OMITTED] T3843.148

[GRAPHIC] [TIFF OMITTED] T3843.149

[GRAPHIC] [TIFF OMITTED] T3843.150

[GRAPHIC] [TIFF OMITTED] T3843.151

[GRAPHIC] [TIFF OMITTED] T3843.152

[GRAPHIC] [TIFF OMITTED] T3843.153

[GRAPHIC] [TIFF OMITTED] T3843.154

[GRAPHIC] [TIFF OMITTED] T3843.155

[GRAPHIC] [TIFF OMITTED] T3843.156

[GRAPHIC] [TIFF OMITTED] T3843.157

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
